U.S. Department of                                     Inspector General              Office of Inspector General
Transportation                                                                        Washington, DC 20590
Office of the Secretary
of Transportation



April 30, 2008


The Honorable Patty Murray                              The Honorable John W. Olver
Chairman                                                Chairman
Subcommittee on Transportation,                         Subcommittee on Transportation,
Housing and Urban Development, and                      Housing and Urban Development, and
Related Agencies                                        Related Agencies
Committee on Appropriations                             Committee on Appropriations
United States Senate                                    United States House of Representatives
Washington, DC 20510                                    Washington, DC 20515

The Honorable Christopher “Kit” Bond                    The Honorable Joe Knollenberg
Ranking Member                                          Ranking Member
Subcommittee on Transportation,                         Subcommittee on Transportation,
Housing and Urban Development, and                      Housing and Urban Development, and
Related Agencies                                        Related Agencies
Committee on Appropriations                             Committee on Appropriations
United States Senate                                    United States House of Representatives
Washington, DC 20510                                    Washington, DC 20515

Dear Chairmen Murray and Olver and Ranking Members Bond and Knollenberg:

This report 1 presents our quarterly assessment of Amtrak’s year-to-date (through
February) fiscal year (FY) 2008 financial performance and operational reform
savings. 2 Amtrak performed better than it expected financially through February
and now projects to end the year with an operating loss 3 of $444.3 million and a
cash balance of $286.1 million. Overall, we believe Amtrak may achieve $13.8
million in FY 2008 operational reform savings. Amtrak achieved $3.2 million in
operational reform savings through February, $0.6 million less than budgeted.

1
    Our previous quarterly reports on Amtrak’s savings from operational reforms are available at
    www.oig.dot.gov.
2
    Defined throughout as either net operating savings or a reduction in net operating losses.
3
    Operating loss is reported on an earnings before interest, taxes, depreciation, and other post-employment
    benefits (EBITDO) basis, unless otherwise noted.


CC-2008-028
                                                                                                   2

Summary

      • Amtrak’s operating loss through February was $158 million,
        $73 million better than planned. Amtrak underestimated its Acela revenues
        and overestimated its benefits costs.

      • Our FY 2008 operating reforms savings target is a subset of Amtrak’s
        $40 million business initiative target. While Amtrak’s $40 million target
        reflects real savings in FY 2008, we did not consider $26 million of them to
        be operating reforms that are sustainable in future years.

      • Amtrak’s focus is now on overall budget performance, not implementing
        sustainable operating reforms. As a result, short term cost avoidance or
        unsustainable favorable financial performance resulting from factors
        beyond Amtrak’s control could take the place of sustainable operating
        reforms. Improving Amtrak’s long-term financial outlook requires
        sustainable reforms, not near term fixes.

      • Amtrak’s current Action Plan does not include specifics on how it would
        achieve its broad financial and operating goals, thereby making its reform
        priorities unclear. Amtrak’s new strategic plan, currently being developed,
        will provide an opportunity for Amtrak to indicate more clearly its reform
        priorities.

Amtrak’s Financial Performance through February Exceeded
Projections

This section provides the results of our review of Amtrak’s year to date financial
performance through February.

Corporate Level Results. Amtrak’s operating loss was $72.9 million less than
budgeted through February. This favorable financial performance was due largely
to better than expected ticket revenues and lower than expected costs for salaries,
wages, and benefits, offset by rising fuel and utilities costs. Amtrak expects high
fuel costs will erode much of these gains. As a result, it projects a year end
FY 2008 operating loss of $444.3 million, only a $31 million improvement to the
$475 million year end loss it originally budgeted. Amtrak also projects a cash
balance of $286.1 million, $97.1 million or 51 percent higher than the
$189 million budgeted cash balance. This increased cash balance reflects, in part,
better than expected revenue through February. 4

4
    $32 million of the year end cash balance is due to one-time cash recoveries primarily from escrow
    deposits, not operating performance.


CC-2008-028
                                                                                                                                                                      3


       Figure 1, below, presents a comparison of Amtrak’s operating loss through
       February and Amtrak’s projection through year end compared to budget.

                                   Figure 1. Amtrak Actual vs. Budget Operating Loss
                                                    Fiscal Year 2008

                           Oct     Nov        Dec          Jan      Feb         Mar         Apr            May         Jun          Jul           Aug         Sep
                     0
                            (27)
                                      (45)       (62)
                          (31)                               (95)
                                   (62)
                                                                       (158)
                                             (108)
                                                                                   (200)
                  (200)
                                                         (176)
                                                                                                   (243)
  $ in millions




                                                                    (231)
                                                                                                              (285)
                                                                               (275)                                      (313)
                                                                                           (311)                                          (353)
                                                                                                           (347)                                      (389)
                  (400)
                                                                                                                      (367)       (398)                           (444)
                                                                                                                                                  (432)

                                                                                                                                                              (475)



                  (600)


                                                        Budget                             Actual                                 Forecast

Source: Amtrak.

       Operating revenues through February were $62.8 million better than budget. This
       includes ticket revenues that were $47.4 million higher than budget which Amtrak
       attributes to a 5 percent fare increase and peak pricing strategy for Acela service,
       as well as increases in ridership as a result of rising gasoline prices and
       deteriorating service quality in the aviation industry. These increases were offset
       by the loss of $2.2 million on the Coast Starlight due to service disruptions caused
       by mudslides, as estimated by Amtrak. Freight access fee and other revenues were
       $9.8 million above budget, due in large part to the one-time sale of 8 P-40
       locomotives the Connecticut Department of Transportation.

       Operating costs were $20.2 million better than budget. Salaries, wages and
       benefits were $24.2 million better than budget due to a management hiring freeze
       and lower than expected benefits costs as a result of an improved claims history
       for the Amtrak health plan. Wages were slightly over budget as attrition continues
       to lower the number of agreement employees causing the company to rely on
       overtime to compensate.




       CC-2008-028
                                                                                     4

Fuel, power, and utilities costs were $15.1 million higher than budgeted. Amtrak is
projecting these costs will continue to rise, with total FY 2008 energy costs
forecast to be $56.9 million higher than budgeted.

Business Line Results. Amtrak’s favorable operating results are largely due to
revenues on the Northeast Corridor (NEC) that exceeded projections. NEC net
operating income (excluding interest and depreciation) of $154.0 million was
$56.4 million better than budget. Ticket revenue of $387.4 million on the NEC
was $40.7 million better than budgeted, and was attributed primarily to a 5 percent
fare increase and peak load pricing strategy for Acela service, as well as ridership
growth driven by rising gasoline prices and deteriorating air service.

               Table 1. Amtrak Business Line Operating Performance*
                                 FY 2008 ($ in Millions)

                                                                        Actual vs.
 Business Line                                     Actual     Budget
                                                                         Budget

 National Train System Operations                  ($97.8)   ($163.0)       $65.2

  Northeast Corridor                               $154.0      $97.6        $56.4

  State-Supported and Other Corridors              ($47.7)    ($46.0)       ($1.7)

  Long-Distance Service                           ($204.1)   ($214.6)       $10.5
* Operating income/loss excluding depreciation.


The operating loss on Amtrak’s state-supported and other corridors of
$47.7 million was $1.7 million over budget through February. This unfavorable
result was largely due to higher than projected fuel costs and lower than planned
state contributions as a result of accounting adjustments. However, passenger
revenues were still $5.9 million better than budget, with ridership 6.3 percent
above budget.

Amtrak’s operating loss for the long-distance trains was $204.1 million through
February, $10.5 million better than budget. This result is due largely to lower than
projected benefits costs. While ridership was 5 percent better than planned,
passenger revenues were down $1.7 million primarily due to food and beverage
sales that were less than expected.




CC-2008-028
                                                                                    5

Amtrak’s New Focus on Bottom Line Financial Performance May
Reduce Emphasis on Long-Term Operating Efficiency Improvements

Amtrak’s current budget focus could result in it foregoing sustainable efficiency
improvements if financial targets can be met by deferring costs or by reaping
benefits of factors beyond Amtrak’s control. For example, rising gas prices and
deteriorating air service quality may lead to higher ridership and revenue, thereby
allowing budget targets to be met without improving Amtrak’s long-term
operating efficiency.

Amtrak is no longer focused on identifying and monitoring reforms. Instead, it is
now focused on achieving aggregate targets for revenue and ridership growth, cost
containment, and operating metrics, with the goal of reducing Amtrak’s reliance
on Federal operating subsidies. Monthly reporting of progress on reform
initiatives has been abandoned and Amtrak departments are held accountable only
to meeting budget goals.

Amtrak considers its FY 2008 initiatives successful if budget targets are met. In
FY 2009, Amtrak will no longer require its managers to report cost savings from
initiatives in the budget, exacerbating this problem. This will make it difficult to
assess if budget goals are being met through sustainable reforms, or if other
factors, such as high gas prices and declining air service quality, are contributing
to Amtrak’s improved financial performance. Improving Amtrak’s long-term
financial outlook requires sustainable reforms, not near term fixes.

Amtrak’s Board and management have been working on a new strategic plan that
could provide direction for new reforms if it includes a process and deadline for
preparing specific detailed implementation plans. Amtrak’s managers are left
without a road map of specific reform priorities to guide their efforts to support the
company’s aggregate business goal of reducing its reliance on Federal operating
support.

Amtrak’s Modest FY 2008 Operating Reforms are Below Targets

Amtrak has realized $3.2 million in operational reform savings through February,
most from NEC service improvements. Savings to date from all business
initiatives are enumerated in Table 2. The following sections provide details on the
implementation plans, status, and savings of the initiatives through February.

   • Reduce Costs and Improve Service Quality. Amtrak saved $3.9 million
     from this initiative through February and expects the initiative will save
     $14.6 million in FY 2008. The initiative consists of three programs: NEC


CC-2008-028
                                                                                  6

        Service Improvements, Long-Distance Service Improvements, and Food
        and Beverage Service.

        The NEC Service Improvement program focuses on the Acela service and
        includes three components: a 16th Acela trainset, improving customer
        satisfaction, and offering Wi-Fi availability on trains and in stations. The
        16th Acela trainset is a result of the Reliability Centered Maintenance
        (RCM) program which allowed Amtrak to put more equipment into service.
        This additional trainset, which was put in service in July 2007, has
        generated $1.8 million in additional revenue through February. Acela
        service improvements such as food and beverage enhancements and leather
        seats in first class have resulted in an estimated revenue increase of
        $1 million through February. Wi-Fi service has not yet been implemented.

         Table 2. Summary of FY 2008 Reform and Savings Initiatives
                              ($ in millions)

                                        Estimated      Actual        Variance
Saving Initiatives                     YTD Benefit   YTD Benefit        +/-
Reduce Costs and Improve Service
Quality                                   4.4           3.9            (0.5)
Increase Sales and Distribution
Efficiencies                              0.4           1.1            0.7
Enhance Reliability and Efficiency
of Mechanical Services                   (3.0)         (2.9)           0.1
Improve Management Systems and
Overhead Efficiencies                     1.3           1.0            (0.3)
Achieve Ongoing Efficiencies              0.7           0.1            (0.6)
Reform Initiative Savings                 3.8           3.2            (0.6)
Other Savings                             7.7           7.9            0.2
Total                                    11.4          11.1            (0.3)
Columns may not sum due to rounding.
Source: Amtrak.

        Long-Distance Service Improvements include relaunching the Coast
        Starlight service, improving customer service, and luxury charter services.
        The Coast Starlight relaunch involves the upgrade of service to an
        enhanced standard with the reintroduction of Pacific Parlour cars which
        will offer enhanced food and beverage services. This is similar to the
        service level upgrade on the Empire Builder undertaken in FY 2006. This
        program produced an additional $0.2 million in revenue through February.


CC-2008-028
                                                                                 7

      Amtrak will place 23 customer service managers on the City of New
      Orleans, Texas Eagle, Sunset Limited, and Coast Starlight to support
      specific service improvements, such as the new Cross Country Cafés, the
      Coast Starlight relaunch, and personnel related customer satisfaction issues.
      This initiative is an expansion of an FY 2007 initiative and is not scheduled
      to begin until April. Finally, in late FY 2007, Amtrak entered a contract
      with GrandLuxe Rail Journeys to offer luxury train travel by adding
      privately owned cars to Amtrak’s long-distance trains. The program was
      cancelled after 8 trips in October and November because GrandLuxe found
      the venture to be unprofitable. This initiative generated $0.2 million in
      additional revenue and no additional revenues are expected.

      The Food and Beverage Service component is the continuation of two
      programs initiated in prior years. The redesign of equipment entails the
      overhaul of Superliner Diner cars into a single Cross Country Café car
      which is expected to reduce headcount and fuel usage. The Cross Country
      Café was rolled out on the City of New Orleans route in October 2007, with
      implementation on the Texas Eagle planned for April and on the Sunset
      Limited expected later this year. Through February, Amtrak saved
      $0.2 million from the new diners. Amtrak also continues to achieve
      incremental savings from its renegotiated contract with Gate Gourmet by
      identifying additional cost saving opportunities in areas such as supplies
      and linen service. Through February, this effort achieved $0.5 million in
      savings.

   • Increase Sales and Distribution Efficiencies. Amtrak achieved
     $1.1 million in additional revenue through February, $0.7 million more
     than planned, and expects to save $1.3 million in all of FY 2008. Amtrak’s
     e-Ticketing program, which began in FY 2007, is being expanded this year
     to include a new website that provides access to international travel agents
     to book Amtrak tickets.

   • Enhance Reliability and Efficiency of Mechanical Services. This initiative
     is focused on the continuation of Reliability Centered Maintenance to
     reduce maintenance costs and allow more equipment to remain in service.
     Initially applied to Acela equipment, the program is rolling out to other
     equipment. At this time, this initiative reflects development costs and
     includes the cost of additional maintenance managers for the high-speed
     rail maintenance program and consulting fees for the design and
     implementation of RCM. In the long run, RCM will reduce maintenance
     costs and increase revenues by allowing trains to be returned to revenue
     service earlier.



CC-2008-028
                                                                                                          8

      • Improve Management Systems and Overhead Efficiencies. This initiative
        consists of two programs: reducing energy costs and on-board credit card
        automation. The program to reduce energy costs relies on contract
        management and has resulted in a net savings of $0.5 million through
        February, despite rising utility costs.

          On-board credit card automation is another program carried over from
          previous years, and consists of improved revenues by making it easier for
          customers to use credit cards as a form of payment as well as reducing the
          cost of credit card transactions through automated processes and other
          improved procedures. With $0.5 million in revenue enhancements and cost
          savings through February, this program is on track to produce the estimated
          full year benefit of $2.1 million.

      • Achieve Ongoing Efficiencies. This initiative consists of two programs:
        engineering efficiencies and fuel use management. 5

          The engineering efficiencies program is designed to produce savings
          through the increased productivity of the engineering workforce by capping
          growth in the number of overtime hours. This program, which has been
          under way since FY 2006, produced $0.1 million in savings through
          February.

          The fuel use management program was scheduled to start producing
          benefits in January of 2008, but has been delayed with implementation
          expected no later than May 30, 2008. This is a program to train locomotive
          engineers in techniques to maximize the fuel efficiency of their equipment.
          This program is expected to produce $0.1 million in savings this year.

Conclusion

Amtrak continues to make progress on a limited set of sustainable operational
reforms. In addition, it is pursuing other business initiatives that improve its
bottom line in the short run, but the savings from these reforms may not be
sustainable.


5
    Amtrak is also reporting on a third initiative, labor productivity savings in the Transportation,
    Environmental, Mechanical, and Engineering Departments. This program is intended to achieve a
    2 percent reduction in labor costs, primarily through management of vacant positions. The program
    resulted in $7.9 million in savings through February. While these are real savings, we did not consider
    targeted savings of almost $18 million this year to be sustainable operating reform. As more information
    becomes available regarding the source of these savings and their sustainability, we may reclassify them
    in the future.


CC-2008-028
                                                                                 9

In addition, a shift in focus from management of reform initiatives towards budget
management may obscure the necessity for reform in an environment marked by
favorable market conditions and labor attrition. A new strategic plan, currently in
development, and a renewed emphasis on sustainable reforms are needed.

Under separate cover, we are transmitting copies of this letter to the Secretary of
Transportation and the Chairman of Amtrak’s Board of Directors. If you have any
questions concerning this letter, please contact me at (202) 366-1959 or
David Tornquist, Assistant Inspector General for Rail and Maritime Program
Audits and Economic Analysis, at (202) 366-9970.

Sincerely,




Calvin L. Scovel III
Inspector General

Enclosures (2)

cc:   Secretary of Transportation
      Chairman of Amtrak’s Board of Directors




CC-2008-028
                                                                         Enclosure 1


                  Table 3. Summary of Amtrak Savings Through February
                                 FY 2008 ($ in millions)

                                                     Estimated Budgeted Actual
                                                                                  YTD
           Amtrak Net Operating Savings               FY 2008    YTD     YTD
                                                                                Variance
                                                      Benefit   Benefit Benefit
Reform Initiatives
  1. Reduce Costs and Improve Service Quality          14.6      4.4       3.9     (0.5)
  NEC Service Improvements                             7.0       1.8       2.8      1.0
    NEC Acela Service Improvement                      4.0       0.8       1.0      0.2
    16th Acela Trainset                                1.7       1.0       1.8      0.8
     Implement Onboard Wi-Fi                           1.3       0.0       0.0      0.0
  Long-Distance Service Improvements                   4.3       1.4       0.4     (1.0)
    Coast Starlight Relaunch                           2.2       0.2       0.2      0.0
    Customer Service Improvement                       0.9       0.0       0.0      0.0
    Luxury Charter Services                            1.2       1.2       0.2     (1.0)
  Food and Beverage                                    3.3       1.2       0.7     (0.5)
    Redesign Equipment                                 1.5       0.4       0.2     (0.2)
    Gate Gourmet Contract                              1.8       0.8       0.5     (0.3)
  2. Increase Sales and Distribution Efficiencies      1.3       0.4       1.1      0.7
    e-Ticketing Customized Access                      1.3       0.4       1.1      0.7
  3. Enhance Reliability and Efficiency of
                                                       (8.1)     (3.0)    (2.9)        0.1
      Mechanical Services
    Reliability Centered Maintenance                   (8.3)     (3.0)    (2.9)        0.1
    Facility Consolidation                              0.2       0.0      0.0         0.0
  4. Improve Management Systems and Overhead
                                                       4.1       1.3       1.0     (0.3)
      Efficiencies
    Reduce Energy Costs                                 2        0.8       0.5     (0.3)
    On-Board Credit Card Automation                    2.1       0.5       0.5      0.0
  5. Achieve Ongoing Efficiencies                      1.8       0.7       0.1     (0.6)
    Fuel Use Management                                0.1       0.0       0.0      0.0
    Engineering Efficiencies                           1.7       0.7       0.1     (0.6)
Subtotal: Reform Initiative Savings                    13.8      3.8       3.2     (0.6)
    Productivity Savings in Environmental,
                                                       18.0      7.7       7.9         0.2
    Transportation, and Mechanical Departments
    Savings from Unidentified Business Initiatives     8.5       0.0       0.0         0.0
Subtotal: Other Savings                                26.5      7.7       7.9         0.2

Total                                                  40.3      11.4      11.1    (0.3)
Columns may not sum due to rounding.
Source: Amtrak.




        CC-2008-028
                                                                                    Enclosure 2
                                                                                     Page 1 of 2


                Table 4. Amtrak’s Proposed Operational Reforms ($ in millions)

Strategic Reform Initiative                                      FY 2008 Targeted     Estimated 5-Year
                                        Objective
and Program                                                          Savings              Savings

1. Reduce Costs and Improve Service Quality
                              Focus management
                              attention and drive
                              accountability for train
NEC Service Improvements      service performance,                     7.0
                              including on-board service
                              quality and on-time
                              performance.
                              Enhance service flexibility by                                TBD
                              redesigning food services
Food and Beverage Services    (for example, multi-purpose              3.3
                              food service cars), improving
                              equipment, and outsourcing.

                              Improve customer
Long-Distance Service
                              satisfaction with long-                  4.3
Improvement
                              distance service.
2. Increase Sales and Distribution Efficiencies
                             Develop enterprise systems
e-ticketing                  and processes for                         1.3                  TBD
                             e-ticketing.
3. Enhance Reliability and Efficiency of Mechanical Services
                              Implement RCM to reduce
                              cycle time and increase
Reliability Centered
                              equipment reliability and                (8.3)                TBD
Maintenance (RCM)
                              availability. Costs represent
                              consultant fees.
                              Optimize facility utilization by
Facilities Efficiencies       consolidating and                        0.2                  TBD
                              redesigning facilities.

4. Improve Management Systems and Overhead Efficiencies

                              Modernize management of
                              utilities contracts and identify
Reduce Energy Costs                                                    2.0                  TBD
                              savings in individual utilities
                              line items.
                              Reduce overhead costs
Reduce Overhead Costs         through on-board credit card             2.1                  TBD
                              automation




       CC-2008-028
                                                                            Enclosure 2
                                                                             Page 2 of 2


          Table 4. Amtrak’s Proposed Operational Reforms ($ in millions) (cont.)

Strategic Reform Initiative                              FY 2008 Targeted   Estimated 5-Year
                                     Objective
and Program                                                  Savings            Savings

5. Achieve Ongoing Efficiencies
                              Reduce costs of
                              Engineering Department;
Train Operations              maximize fuel efficiency         1.8                TBD
                              of locomotives by
                              training engineers.
Total                                                          13.8               TBD



        Addendum:

        The following table contains information contained in a graph (Figure 1) in
        this document. This information was not a part of the original document
        but has been added here to accommodate assistive technology.

        Figure 1: Amtrak Actual vs. Budget Operating Loss, Fiscal Year
        2008 ($ in millions)
                                 Actual Operating Budget Operating
                                       Loss               Loss
        October                         -27                 -31
        November                        -45                 -62
        December                        -62               -108
        January                         -95               -176
        February                       -158               -231
        March (forecast)               -200               -275
        April (forecast)               -243                -311
        May (forecast)                 -285               -347
        June (forecast)                -313               -367
        July (forecast)                -353               -398
        August (forecast)              -389               -432
        September (forecast)           -444               -475

        Source: Amtrak



        CC-2008-028
